                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A081000047
                                                                                    11           Page 1 of 1
                                                                                                                   11
                 We received an allegation that an awarded NSF proposal1 contained misleading data in
                                                                       ~ particular, it was alleged that the PI^
         the discussion of previous results from NSF r e ~ e a r c h .In
         and cop1s4 reported concentration data from a method that gave an inflated value (relative to
         other substances) upon which they erroneously based the proposed work. From the date stamps
         on the proposal and other relevant documents, it appears that the proposal reflected the current
         state of knowledge in this line of research at the time the PVCoPIs submitted it. In their most
         annual report to NSF, the PVCoPIs report the newer method and concentrations consistent with
         those allegedly being withheld from NSF. There is insufficient evidence to suggest that research
         misconduct may have occurred.

                    Accordingly, this case is closed.




-
NSF OIG Form 2 (1 1/02)
